Squire Patton Boggs (US) LLP
2550 M Street, NW
Washington, D.C. 20037
+1 202 457 6000
+1 202 457 6315
squirepattonboggs.com
O
F

Gassan A. Baloul
T +1 202 457 6155
gassan.baloul@squirepb.com

December 20, 2019
Scott S. Harris
Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, DC 20543-0001
RE:

Consent Request for Extension of Time to Respond to Petition for
Certiorari in Sokolow et al. v. Palestine Liberation Organization, et al.,
No. 19-764 (docketed December 16, 2019).

Dear Mr. Harris,
I am counsel of record for Respondents Palestine Liberation Organization and
Palestinian Authority. Pursuant to the Court’s Rule 30.4, Respondents respectfully
request an extension of time, to and including March 16, 2020, of the deadline to file
their brief in opposition to the Petition for Certiorari in this action. Respondents’
brief in opposition currently is due January 15, 2020. This is Respondents’ first
request for an extension of time.
Petitioners’ counsel, Kent Yalowitz of Arnold & Porter Kaye Scholer LLP, has
authorized us to state that Petitioners consent to this requested extension of
Respondents’ time to file their brief in opposition.
As grounds for this requested extension, Respondents state as follows:
1.

Respondents collectively comprise the government of Palestine
pursuant to the Oslo Accord of 1993. See Declaration of Principles on
Interim Self-Government Arrangements, Sept. 13, 1993, arts. I, VI-VII,
32 I.L.M. 1525, 1527 (1993). Multiple elements of the Palestinian
government will need to review and approve Respondents’ brief in
opposition prior to submission. This inter-agency review process will be

47 Offices in 20 Countries
Squire Patton Boggs (US) LLP is part of the international legal practice Squire Patton Boggs, which operates worldwide through a number of separate
legal entities.
Please visit squirepattonboggs.com for more information.

Scott S. Harris
December 20, 2019
Page 2

Squire Patton Boggs (US) LLP

time-consuming, not unlike the U.S. government
coordination process for briefs submitted to this Court.

inter-agency

2.

Respondents also must prepare their brief in opposition to the Petition
for Certiorari in a related case, Estate of Esther Klieman et al. v.
Palestinian Authority, et al., No. 19-741. Respondents have sought an
unopposed extension until March 13, 2019, of the deadline for their brief
in opposition to the Petition in Klieman.

3.

Respondents seek this extension in light of the comparable unopposed
extension requested in the Klieman case, the workload of responding to
two related Petitions, competing court deadlines in other cases, and the
fact that the current response period occurs during the Winter holidays
when staffing is reduced.

Accordingly, Respondents respectfully request that the Court extend, to and
including March 16, 2020, their deadline to file their brief in opposition to the Petition
for Certiorari in this action.
Respectfully submitted,
Squire Patton Boggs (US) LLP

Gassan A. Baloul
Counsel of Record for Respondents
cc:

All counsel of record (see attached Certificate of Service)

